           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE SOCIAL SECURITY ADMINISTRATION’S
  CONTRACT WITH UNIFIED CONSULTANTS
      GROUP, INC., CONTRACT NUMBER
              SS00-05-60015

     September 2008   A-15-08-18033




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      September 26, 2008                                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Contract with Unified Consultants Group, Inc.,
           Contract Number SS00-05-60015 (A-15-08-18033)


           OBJECTIVE

           Our objectives were to determine whether the contractor was complying with the
           contract terms and applicable Social Security Administration (SSA) policies, and to
           ensure SSA personnel were properly monitoring the contract. We also determined
           whether SSA was maximizing the use of the benefits rendered from the contractor’s
           services.

           BACKGROUND

           On July 22, 2005, SSA awarded Unified Consultants Group, Inc., (UCG) a contract to
           conduct physical security facility reviews (PSFR) at SSA facilities 1 nationwide. The
           PSFR program is designed to assess the adequacy of physical security measures in
           place at an SSA facility and determine whether there are vulnerabilities that must be
           addressed. Physical security includes those safeguards that protect SSA facilities, staff
           and visitors, information, and equipment, but excludes computer systems security.
           Refer to Appendix D for a list of UCG’s most frequently identified field office security
           issues. SSA’s Administrative Instructions Manual System (AIMS) defines the priority of
           physical security issues by designating the most serious security problems as Tier 1,
           and lesser security issues as Tier 2. Physical security issues relating to fire safety and
           training are classified as health and safety issues. See Appendix E for a list of Tier 1
           and Tier 2 security requirements.




           1
            SSA facilities may include (1) field offices, (2) Offices of Disability Adjudication and Review (ODAR),
           (3) Contact Stations, (4) ODAR Remote Sites, (5) teleservice centers, (6) regional offices, (7) program
           service centers, (8) the Regional Training Center, (9) the National Records Center, (10) the Regional
           Office Warehouse and (11) SSA Headquarters.
Page 2 - The Commissioner


The contract requires that UCG review 312 offices at a cost of $2,773,332.


                                                              Number
                   Period of Performance                     of Offices       Total Amount
             Base Year - Fiscal Year (FY) 2006                  100               $881,590
             Option Year 1 - FY 2007                            106               $890,821
             Option Year 2 - FY 2008                            106             $1,000,921
             Total                                              312             $2,773,332

The SSA Office of Facilities Management (OFM), Office of Protective Security Services,
(OPSS) is responsible for ensuring a safe and secure workplace for Social Security
employees nationwide. OPSS personnel are responsible for managing and monitoring
the UCG contract. OPSS’ responsibilities under this contract include (1) selecting the
SSA facilities to be reviewed, (2) ensuring UCG’s compliance with the contract,
(3) reviewing UCG’s completed PSFR reports, (4) monitoring the facilities’ responses to
UCG’s recommendations and (5) examining and approving UCG’s invoices.

Security Assessments and Funded Enhancements

OFM developed and implemented the Security Assessments and Funded
Enhancements (SAFE) system, which is a secure web portal, to provide a central
repository of physical security reports, information and tools 2 to assist in managing the
Agency’s physical and protective security program. SAFE, which has been available on
the SSA Intranet since October 1, 2007, provides a means of better tracking security
reviews for a designated activity, corrective actions taken to correct deficiencies and
funding use for security compliance. All field office managers, assistant managers and
area directors have access to their offices’ physical security data on SAFE.

Before SAFE was implemented, SSA’s regional physical security coordinators and
Office of Disability Adjudication and Review (ODAR) Physical Security Coordinators
(PSC) maintained varying forms of documentation to track corrections and request
funds from OPSS, if necessary, to assist in resolving the identified physical security
issues.

RESULTS OF REVIEW

Overall, we found UCG was conducting the PSFRs in compliance with the contract
terms and applicable SSA policy, and OPSS personnel were properly managing and
monitoring the UCG contract. We found UCG completed the required number of
PSFRs within the required time frames, and submitted reports with the information
required by the contract. However, we found (1) inadequate follow-up of outstanding
2
  SAFE provides information on-line, which includes a Physical Security Action Plan, and tools, such as an
Occupant Emergency Plan Questionnaire, electronic logs (intrusion detection system testing and
activation; duress alarm testing and activation; fire extinguisher inspection; emergency lighting testing; key
logs; training logs; and evacuation drills), and an online Physical Security Self-Assessment Questionnaire.
Page 3 - The Commissioner


FY 2006 and FY 2007 PSFR recommendations, (2) inefficient use of SAFE, and (3) a
missing suitability determination. In addition, we believe SSA is not maximizing the
benefits of services rendered under the UCG contract.

Inadequate Follow-up of Outstanding FY 2006 and 2007 PSFR Recommendations
                                                                  3
The office manager must address each PSFR security team finding. The PSFR is a
comprehensive review that checks for approximately 70 potential physical security
issues. Any disagreement with a finding or suggested remediation method must be
presented to the Regional or ODAR Headquarters PSC, who will present the issue to
OPSS for resolution. 4

We reviewed 38 PSFRs consisting of 18 and 20 PSFRs for FYs 2006 and 2007,
respectively. These PSFRs identified 577 recommendations. For the FY 2006 and
2007 PSFRs, OPSS passed the PSFR reports to the regions to address the UCG
identified security issues. Our review of the regional and ODAR PSC responses to the
status of UCG’s recommendations found that 311 (54 percent) of the
577 recommendations were closed; however, 266 (46 percent) of the recommendations
remained open, as shown in the Table below.

             Number of
    Fiscal    PSFRs            Closed                    Open                    Total
     Year    Reviewed      Recommendations          Recommendations         Recommendations
     2006       18              154                       117                     271
     2007       20              157                       149                     306
    Total       38              311                       266                     577

Closed Recommendations

We did not independently verify the information reported. As a result, we did not
assess whether the recommendations were properly closed. The regional and ODAR
PSC responses indicated that 42 of the 311 closed recommendations were closed
because the office disagreed with the recommendation.

Open Recommendations

The regional and ODAR PSC responses indicated that 96 of the 266 open
recommendations pertained to areas requiring mandatory Tier 1 security




3
 SSA’s Administrative Instructions Manual System (AIMS), Materiel Resources Manual (MRM)
§ 04.50.09, PSFR Program D.4.
4
    Id.
Page 4 - The Commissioner


enhancements. 5 The remaining 170 open recommendations related to less critical
physical security issues (Tier 2), 6 and health and safety issues. 7

In some instances, the PSCs could not provide information on the status of the
recommendation or stated the recommendation was still under review. For example, in
October 2006, UCG found the exterior lighting in one field office was activated on a
timer between 5 p.m. and 8 p.m. UCG recommended that the lessor of the building
reset the lights’ automatic timer to remain on during all hours of darkness. Sufficient
lighting eliminates potential hiding areas and aids in security monitoring. However, as
of April 2008, the PSC could not provide information as to whether this
recommendation had been addressed or resolved. UCG is completing its work as
required by the contract and making recommendations, therefore, the PSCs should be
more responsive in completing the required corrective actions, and OPSS along with
the Region and ODAR PSCs should ensure all recommendations are addressed.

Also, we found SSA had not addressed 56 recommendations identified in the FY 2006
reviews. All of these reviews were completed during October through December 2005.
In one instance, the PSC’s response indicated action was taken. In November 2005,
UCG identified an expired fire extinguisher in a field office computer room that may not
have worked in the event of a fire. In April 2008, we performed a site visit and found
the fire extinguisher had been removed. We were informed the field office was
replacing the fire extinguisher. Additionally, a PSFR conducted in April 2007 found fire
                                                     8
extinguishers were not clearly marked. SSA policy indicates fire extinguishers should
be mounted where they are easily seen and accessed, and where visual obstructions
cannot be avoided the location must be conspicuously marked. Accordingly, labels
should be applied that conspicuously indicate the positions of obstructed fire
extinguishers. In April 2008, we performed a site visit and found the labels of certain
obstructed fire extinguishers were too low to be seen over office cubicle walls.




5
  AIMS, General Administration Manual (GAM) § 12.06.07 C, Tier 1 Security Enhancements. This policy
requires SSA management to ensure that, in SSA offices dealing with the public, mandatory Tier 1
security enhancements are in place.
6
 AIMS, GAM § 12.06.07 D, Tier 2 Security Enhancements. Although not mandated, management is to
consider Tier 2 enhancements.
7
    AIMS, GAM § 13.04.09 Attachments A- J.
8
    AIMS, MRM § 04.50.08.E.
Page 5 - The Commissioner


SSA’s physical protective security program protects all Agency personnel, visitors,
records, equipment and facilities. Inadequate physical protective security controls 9
could result in

       1.   physical harm to employees and the public,
       2.   damage to or loss of facilities,
       3.   the compromise of personally identifiable information,
       4.   theft,
       5.   destruction of Government records and property,
       6.   vulnerability to civil liability, and
       7.   inability to carry out SSA's mission.

The examples noted above indicate that identified security issues existed for lengthy
periods of time. Additionally, the PSCs stated that some recommendations were still
open as a result of a pending action (such as requesting funds). However, we found
that 163 (61 percent) of 266 recommendations did not require funding, or the cost of
the repair and/or improvement was less than $200. Based on UCG’s estimates, SSA
could resolve all 163 issues with as little as $2,963 in funding. While we recognize that
SSA policy includes no specific timeframes for correcting security issues, we believe
2 years should be sufficient time to resolve security issues—particularly mandatory
Tier 1 issues.

SSA is paying about $2.8 million for a contract meant to improve the security of all
Agency personnel, visitors, records, equipment and facilities. However, SSA is not
taking timely action to correct security issues identified by the contractor. At the time of
our review, many of the contractor’s recommendations remained unimplemented and
SSA facilities, data, and employees continued to be vulnerable.

Inefficient Use of SAFE

Starting in FY 2008, UCG input the PSFR results directly into SAFE; therefore, all UCG
recommendations and cost estimates are included in SAFE. As previously stated, the
office manager must address each PSFR security team finding. 10 Any disagreement
with a finding or suggested remediation method must be presented to the Regional or
ODAR Headquarters PSC who will present the issue to OPSS for resolution. 11

OPSS monitors the status of each finding and the implementation of corrective actions
via the SAFE web portal. The PSCs are responsible for contacting managers to obtain




9
    AIMS, MRM § 04.50.02.B.
10
     AIMS, MRM § 04.50.09.D.4.
11
     Id.
Page 6 - The Commissioner


current information about the corrective actions implemented. The office manager is
responsible for marking the items “Resolved” in SAFE after remediation is complete. 12

We reviewed 17 PSFRs for FY 2008 and found that 5 (29 percent) had included an
entry in SAFE. For those regions that completed some form of entry in SAFE, we found
many input requests for funds, but did not identify any non-funded corrective action
entries. Generally, for the non-funded corrective actions, there was no evidence the
issue was addressed or resolved. Also, in several instances, the site managers stated
they had not heard of SAFE or had no training and/or understanding of how SAFE
operated. Subsequent to our review, we learned that SAFE had not been officially
rolled out nationwide until July 2, 2008. Therefore, offices may not have been using the
system, although it was available.

SAFE could be better used if SSA would require that the regions respond to all PSFR
recommendations (that is, funded and non-funded, and current and prior year) within
the SAFE web portal. OPSS stated that SSA policy is being revised to require the use
of SAFE.

Missing Suitability Determination

We reviewed the suitability determinations for the 9 contractor employees on this
contract. We identified one instance where SSA did not complete the suitability
process for a UCG employee, causing non-compliance with the Security Requirement
Clause of the contract. Specifically, we identified one contractor employee (a
subcontractor with SEI) who had performed under the contract 13 for at least 2 years with
access to sensitive SSA information, who did not have a pre-screening or suitability
determination. SSA’s Center for Personnel Security and Project Management
(CPSPM) confirmed that it had no suitability determination letter for this individual.

According to CPSPM staff, processing of the suitability determination for this individual
was under another SSA contract with SEI. However, the SEI contract ended before the
suitability determination was completed; therefore, SSA stopped the suitability
determination process, no continuation of the process took place under the current
contract with UCG. Also, UCG stated the SEI employee without the suitability
determination had retired, and his replacement had submitted information for a
suitability determination.

The sensitive physical security information in the PSFR protects Agency personnel,
visitors, records, equipment and facilities; therefore, SSA must remain committed to
safeguarding its information. The SSA Office of Acquisition and Grants contract officer
and the OPSS Contracting Officer’s Technical Representative should consistently

12
     Id.
13
  SSA Contract Number SS00-05-60015, section C-4.6 Security Requirements Clause, (b) defines
“performing under the contract” as either working on-site at an SSA facility (including visiting the SSA site
for any reason) or having access to agency programmatic or sensitive information.
Page 7 - The Commissioner


monitor the staffing of the contractor and any sub-contractor to ensure that only
approved staff are allowed access to SSA’s facilities and programmatic or sensitive
information.

CONCLUSION AND RECOMMENDATIONS
We found UCG was conducting the PSFRs in compliance with the contract terms and
applicable SSA policies, and OPSS personnel were properly managing and monitoring
the UCG contract.

However, SSA is not maximizing the potential benefits of the UCG contract; since SSA
has not completed the corrective actions on contractor recommendations timely,
effectively and efficiently. Therefore, SSA should either take timely, effective and
efficient action on the UCG recommendations, or SSA should modify future contracts to
limit the scope of the testing to those areas that the Agency considers more significant
and is willing to resolve timely. The reduction in the scope of the PSFRs, to focus only
on the corrective actions that SSA would be willing to undertake, could result in
potential savings to SSA in a lower contract cost.

Also, we believe SAFE is a useful program, but internal controls must be strengthened
to ensure the SSA staff responsible for corrective action complete those actions timely
and satisfy the security needs of the office. Additionally, OPSS should make an effort
to address older recommendations before SAFE implementation. Some of these
recommendations require little or no funding and should be immediately addressed and
resolved.

We recommend SSA:

1. Monitor and resolve all outstanding FY 2006 and 2007 PSFR recommendations
   promptly.

2. Revise SSA policy to require that the regions enter all remedial action into SAFE
   promptly. Also, SSA should remind all field office managers, assistant managers
   and area directors on the use of SAFE and ensure recommendations are addressed
   timely.

3. Ensure all contractor personnel (including subcontractors) who work on the UCG
   contract have a favorable suitability determination.
Page 8 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with the recommendations. The full text of the Agency’s comments is
included in Appendix C.




                                            Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Unified Consultants Group’s Most Frequently Identified Field Office
             Security Issues

APPENDIX E – Social Security Administration’s Tier Security Enhancements

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AIMS    Administrative Instructions Manual System
CCTV    Closed Circuit Television System
CPSPM   Center for Personnel Security and Project Management
FY      Fiscal Year
GAM     General Administration Manual
MRM     Materiel Resources Manual
ODAR    Office of Disability Adjudication and Review
OFM     Office of Facilities Management
OIG     Office of the Inspector General
OPSS    Office of Protective Security Services
PSAP    Physical Security Action Plan
PSC     Physical Security Coordinator
PSFR    Physical Security Facility Review
SAFE    Security Assessments and Funded Enhancements
SAS     Space Allocation Standards
SSA     Social Security Administration
UCG     Unified Consultants Group, Incorporated
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we:

    Reviewed the Unified Consultants Group, Inc., (UCG) contract SS00-05-60015
     and contract modifications for Fiscal Years (FY) 2006 through 2008. Also, we
     reviewed the Social Security Administration’s (SSA) Administrative Instructions
     Manual System sections related to physical security.

    Reviewed the Office of Protective Security Services’ physical security facility
     review (PSFR) site selection list.

    Sampled 55 PSFR reports and reviewed the findings and recommendations.
     Additionally, we assessed the reported information to ensure compliance with the
     contract.

      •   The base year contract included the requirement for 100 physical security
          surveys. The subsequent option years require 106 physical security surveys
          per option year.

      •   For FYs 2006 and 2007, we sorted the sites visited by Region. We selected
          the first two sites visited in each Region. For FY 2006, 9 Regions were
          visited; therefore, we reviewed 18 site reports. For FY 2007, 10 Regions
          were visited; therefore, we reviewed 20 site reports.

      •   Additionally, we ensured each report contained the items required by the
          contract and the required number of PSFRs were completed.

      •   For FY 2008, we used December 1st as the cut-off date (since this year was
          on-going). We reviewed the reports for all 17 sites visited during the first
          2 months of FY 2008.

    Evaluated internal controls at UCG and SSA’s Offices of Protective Security
     Services, Acquisition and Grants, and Finance to determine if the processes
     were functioning properly, such as, contract invoices were properly reviewed and
     paid.

    Interviewed staff at UCG and SSA’s Offices of Protective Security Services,
     Acquisition and Grants, and Finance.




                                          B-1
    Evaluated OPSS’ oversight of UCG to ensure the contractor’s compliance with
     the contract, which included OPSS’ examining and approving of UCG’s invoices
     for our sample group.

    Obtained written responses from the Regional and Office of Disability
     Adjudication and Review physical security coordinators on their monitoring
     process and the status of corrective actions for our sample group.

    Conducted interviews with selected site managers a week after UCG completed
     reviews at SSA field office sites. We obtained information on the contractor
     actions and the site manager’s receptiveness to the findings.

    Visited seven field offices in our sample and observed the corrective actions.

We performed our audit at the SSA Headquarters and field offices in Boston, New York,
Philadelphia, Atlanta, and Kansas City from November 2007 through May 2008. We
found the data used for this audit were sufficiently reliable to meet our objectives. The
entities audited were the Offices of Acquisition and Grants, and Protective Security
Services under the Deputy Commissioner for Budget, Finance and Management.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




                                           B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:     September 18, 2008                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject    Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s
           Contract with Unified Consultants Group, Inc., Contract Number SS00-05-60015” (A-15-08-
           18033)--INFORMATION


          We appreciate OIG’s efforts in conducting this review. Attached is our response to the
          recommendations.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


          Attachment




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S CONTRACT WITH UNIFIED
CONSULTANTS GROUP, INC., CONTRACT NUMBER SS00-05-60015” (A-15-08-18033)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Monitor and resolve all outstanding fiscal year 2006 and 2007 Physical Security Facility Review
recommendations promptly.

Comment

We agree. We will monitor and resolve all outstanding fiscal year 2006 and 2007 Physical
Security Facility Review recommendations.

Recommendation 2

Revise policy to require that the regions enter all remedial action into Security Assessments and
Funded Enhancements (SAFE) promptly. Also, remind all field office managers, assistant
managers, and area directors on the use of SAFE and ensure recommendations are addressed
timely.

Comment

We agree. On August 22, 2008, we issued the Administrative Instructions Manual System
(AIMS) 12.06, which mandates SAFE usage. We are working to update AIMS 12.06 to include
timeframes for remedial actions. By March 31, 2009, we will complete updates to SAFE. This
update will remind users of pending actions that need handling, to update Physical Security
Action Plans/Occupant Emergency Plans, of pending remedial actions, etc. Any pending items
that do not require funding will be corrected within 30 days of the security review report.
Deficiencies identified that require funding will be corrected within 12 months of the security
review report or an extension must be requested.

Recommendation 3

Ensure all contractor personnel, (including subcontractors), who work on the Unified Consultants
Group, Incorporated (UCG) contract, have a favorable suitability determination.

Comment

We agree. We have identified a single point of contact to review and monitor all persons
working under the UCG contract. We will ensure all UCG employees have proper suitability
determinations prior to performing duties.



                                               C-2
                                                                 Appendix D

Unified Consultants Group’s Most Frequently
Identified Field Office Security Issues
Reception:

1. Reception area chairs/Other objects are not secured.

Access:

1. Keys are not stamped "Do not duplicate."

Doors:

1. No deadbolt equivalent lock on perimeter doors.

Intrusion Detection Systems and Duress:

1. Intrusion detection system or sensors are inadequate.
2. Install/improve closed-circuit television system.
3. Install/improve duress alarm system.

Lighting:

1. Inadequate or inoperative exterior lighting.
2. Emergency lighting is not tested monthly.
3. Inadequate or inoperative emergency lighting/no flashlight.

Plans, Policies and Procedures:

1. Update and test the Physical Security Action Plan (PSAP) and Occupant
   Emergency Program.
2. Revise the PSAP/provide employees copies.

Guard Services:

1. Guard post orders are inadequate/ No Contract Guard Manual.

Exterior:

1. Utilities are not protected.
                                                                               Appendix E

Social Security Administration’s Tier Security
Enhancements
Tier 1 Security Enhancements 1

      Management is to ensure that, in Social Security Administration (SSA) offices
      dealing with the public, the following mandatory Tier 1 security enhancements are in
      place:

      1. Duress (panic) alarms at all workstations used for interviewing the public. This
         also includes the reception counter and the private interview room in field offices.

      2. Peepholes in exterior and interior doors as needed (and installed at wheel chair
         height if appropriate). Office of Disability Adjudication and Review (ODAR)
         hearing rooms are to have peepholes which look into the rooms.

      3. Locks and panic bars on exterior and interior doors as needed. Locks are to
         meet the security locking requirements in the current SSA or ODAR Space
         Allocation Standards (SAS). Due to technology developments, types of locks
         may be changed as long as the intent of the SAS is met. Locks are to be
         installed in accordance with local fire and building codes.

      4. Intrusion detection system.

      5. Security lighting (interior and exterior) at building entrances and in parking areas
         controlled by SSA for employee and visitor safety.

Tier 2 Security Enhancements 2

      Although not mandated, management is to consider the following Tier 2
      enhancements:

      1. Emergency lighting to provide sufficient lighting for employees to safely evacuate
         the office during power failures and other emergencies.

      2. Emergency power back-up systems for critical security systems such as the
         intrusion detection system.

1
 Administrative Instructions Manual System (AIMS), General Administration Manual (GAM) § 12.06.07 C,
Tier 1 Security Enhancements.
2
    AIMS, GAM § 12.06.07 D, Tier 2 Security Enhancements.


                                                 E-1
3. Closed circuit television (CCTV) systems (Refer to OFM memorandum dated
   April 25, 2000 entitled “Use of CCTVs Within SSA/ODAR Offices”, available by
   contacting OPSS (410) 965-4544).

4. Physical modifications to the space, such as the installation of barrier walls,
   Plexiglas reception windows, separate restrooms for the public, etc.




                                        E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kristen Schnatterly, Acting Director, Financial Audit Division, (410) 965-0433

   Mark Meehan, Acting Audit Manager, (410) 966-7147

Acknowledgments

In addition to those named above:

   Sig Wisowaty, Senior Auditor

   Tonia Hill, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-08-18033.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
